        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department's Progress in Meeting
Los Alamos National Laboratory
Consent Order Milestones




DOE/IG-0793                           April 2008
                            Department of Energy
                                Washington, DC 2 0 5 8 5


                                 A p r i l 1 1 , 2008


MEMORANDUM FOR THE SECRETARY

FROM:                 +F
                      Greg y . Friedman
                      Inspector General

SUBS ECT:             INFORMATION: Audit Report on "The Department's Progress in
                      Meeting Los Alamos National Laboratory Consent Order
                      Milestones."

lNTRODUCTIOlU AND OBJECTIVE


As early as 1943, Los Alamos National Laboratory began disposing of its hazardous
waste in pits, trenches, shafts, and landfills. In March 2005, the Laboratory, the New
Mexico Environment Department, and the Department of Energy signed a Consent Order
to address the potential release of contamination from this waste. The Consent Order
provides requirements and a timetable for environmental cleanup. The Department's
Office of Environmental Management funds the work necessary to meet Consent Order
requirements. The National Nuclear Security Administration is responsible, through its
laboratory contractor, Los Alamos National Security, LLC, for managing and performing
the work.

The Consent Order contains specific milestones designed to ensure that the
characterization and remediation process is completed by 201 5. Included in the Order are
milestones for Areas L and G, which are located in Technical Area 54. The Department
is required to complete and demonstrate the effectiveness of remediation actions for these
sites by July 201 1 and December 201 5, respectively. Area G is the largest of Los
Alamos' waste disposal areas and contains a significant amount of hazardous waste.

Although the Department met 54 of 56 milestone requirements that were to have been
completed by September 30, 2007, it has acknowledged that it is behind schedule in
completing work to meet several Fiscal Year 2008 milestones. Given this
acknowledgement, we focused our review on evaluating the Department's progress
toward completing long-term remediation actions.

RESULTS OF AUDIT

The audit disclosed that, absent a dramatic change in approach, it is unlikely that the
Department will complete certain long-term remediation activities at Los Alamos in
accord with existing requirements. Specifically, the Department has experienced delays
in removing waste and facilities in Areas L and G, making it unlikely that remediation
milestones established in the Consent Order for these areas will be met. Our finding at
Los Alamos is consistent with a broader observation made recently by Department
management that the agency would not meet some milestones and obligations contained
in environmental agreements that have been negotiated over many years.

For Areas L and G at Los Alamos, we noted that the Department:

       Did not begin decontamination and decommissioning of 58 structures in Area G
       and six structures in Area L in 2007, as planned, and does not anticipate f~inding
       such work until FY 201 1 ; and,

       Has experienced delays in removing high-activity transuranic waste from Area G,
       and, it may be forced to extend the removal schedule for all transuranic waste
       from 20 12 to 201 4 due to funding constraints.

Los Alamos officials indicated that it would take three years after removal of the
transuranic waste to complete remediation work at Area G, making it i~nlikelythat the
Department will be able to meet the 201 5 Consent Order milestone. Additionally,
extending the schedule for the removal of all transuranic waste to 2014, gives the
Department only one year to meet the Consent Order's 201 5 milestone for Area G. The
completion of the necessary work in one year is highly problematic.

The Department's ability to meet Consent Order milestones was adversely impacted
because it had not:

       Ensured that the funding priority for decontamination and decommissioning work
       was consistent with priorities established for meeting Consent Order milestones;
       and,

       Fully identified the funding needed to carry out all the work necessary to meet the
       milestones until November 2007.

We rioted that facility decontamination and decommissioning was ranked significantly
lower in funding priorities than remediation at Los Alamos, despite the fact that
remediation work cannot be completed until the decontamination and decommissioning
of facilities is finished. Additionally, funding has not been sufficient, according to
Department officials, to carry out all the work necessary to meet the requirements of the
Order. Funding has been a major concern since 2005 when the Department signed the
agreement. In fact, in 2005 the Los Alamos Site Office Manager wrote, that he had
strong reservations that the appropriate resources had not been identified to fully execute
the environmental restoration program needed to meet the requirements of the Consent
Order.

We further noted that although Los Alamos had prepared cost estimates as early as 2005
for meeting the Consent Order milestones, the Department did not have a certified
performance cost baseline to support its funding requests until November 2007. A
certified baseline establishes the cost, schedule and contingency needed to meet the
milestones requirements. Based on the November 2007 baseline, a projected funding
shortfall exists each year through 201 2. Additionally, the projected funding for Consent
Order activities does not cover $947 million in "iinfunded" contingencies.
Delays in completing the substantial remediation work associated with the Consent Order
milestones niay increase the risk of employee and public exposure to contaminants.
Furthermore, such delays are likely to increase the cost of the overall environmental
cleanup. To address this situation, we made recommendations to improve management
of available funds and the schedule for meeting Consent Order milestones.

MANAGEMENT REACTION

Management officials from the National Nuclear Security Administration and the Office
of Environmental Management concurred with the audit recommendations.
Environmental Management acknowledged that its FY 2009 budget would not allow it to
meet certain milestones contained in environmental agreements that have been negotiated
with regulators, and some milestones will be missed regardless of funding. Management
noted that some of the agreements were negotiated with incomplete knowledge of the
technical complexity and magnitude of costs that would be involved.

Management further indicated that it has reason for optimism regarding the
environmental clean-up effort at Los Alamos. It asserted that contractor and project
performance have improved. As a result, two 'formerly at risk' milestones under the
Consent Order have been met, and the rate of offsite shipment of the highest-activity
mixed transuranic waste has increased. Management expressed the view that it now
possesses the tools to work with the regulator to re-order work packages and set priorities
to accomplish the clean-up objectives for the site. Management's comments are included
in their entirety in Appendix 3.

cc: Acting Deputy Secretary
    Under Secretary for Energy
    Administrator for National Nuclear Security Administration
    Assistant Secretary for Environmental Management
    Chief of Staff
    Manager, Los Alamos Site Office
    Director, Policy and Internal Controls Management, NA-66
REPORT ON THE DEPARTMENT'S PROGRESS IN MEETING LOS
ALAMOS NATIONAL LABORATORY CONSENT ORDER
MILESTONES


TABLE OF
CONTENTS

    Consent Order Cleanup at Los Alamos National Laboratory

    Details of Finding ..............................................................................1

    Recommendations and Comments.....................................................4



    Appendices

    1. Objective, Scope, and Methodology............................................5

    2. Related Audit Reports..................................................................7

    3. Management Comments ..............................................................8
Consent Order Cleanup at Los Alamos National Laboratory

Consent Order       The Department of Energy (Department) is in jeopardy of not
Milestones          completing remediation activities in Areas L and G of Los Alamos
                    National Laboratory's (Los Alamos) Technical Area 54, by 2011
                    and 2015, respectively, as required by the Consent Order.
                    Specifically, the National Nuclear Security Administration
                    (NNSA) has experienced delays in performing work that must be
                    conducted in these areas before remediation activities can be
                    completed.

                    NNSA did not begin the decontamination and decommissioning of
                    58 structures in Area G and 6 structures in Area L in Fiscal Year
                    (FY) 2007 as scheduled. Until these structures are removed, the
                    Department cannot fully perform remediation activities of the soil
                    beneath them. The Office of Environmental Management (EM),
                    which provides funding to meet Consent Order requirements, does
                    not plan to fund the decontamination and decommissioning work
                    until FY 2011. Since decontamination and decommissioning work
                    is being delayed, the schedule for completing both prerequisite and
                    Consent Order work for Area L may be compressed from five
                    years to one year; and, the Area G schedule may be compressed
                    from nine years to five years. NNSA has not revised the schedule
                    baseline for meeting the Consent Order milestones to recognize the
                    impact of the four-year delay in beginning the prerequisite
                    decontamination and decommissioning work to meet the 2011 and
                    2015 milestones for Areas L and G remediation.

                    Additionally, NNSA experienced delays in removing high-activity
                    transuranic waste located in Technical Area 54, Area G. In order
                    to meet the 2015 Consent Order milestone, NNSA had planned to
                    remove all transuranic waste from Area G by 2012. However,
                    NNSA has prepared a draft schedule baseline change that would
                    extend completing transuranic waste removal by two years until
                    2014 due to funding constraints. A two-year delay in removing all
                    transuranic waste will further compress the schedule for
                    completing remediation activities in Area G, since all transuranic
                    waste would not be removed until only one year before the 2015
                    milestone. Further, Los Alamos officials indicated that it would
                    take three years after removal of the transuranic waste to complete
                    decontamination and decommissioning and construction of the
                    engineered cap at Area G, making it unlikely that the Department
                    will be able to meet the 2015 milestone for completing remediation
                    of the site.




Page 1                                                             Details of Finding
Management Issues   The Department is in jeopardy of not meeting Consent Order
                    milestones because it had not ensured that the funding priorities for
                    prerequisite work were consistent with priorities established for
                    Consent Order milestones. Additionally, the Department had not
                    fully identified the funding needed to carry out all the work
                    necessary to meet the milestones until November 2007.

                                             Funding Priorities

                    Funding priorities for prerequisite work such as decontamination
                    and decommissioning were not consistent with the funding priority
                    given to Consent Order remediation activities. EM uses a budget
                    ranking process that is based largely on environmental risk to
                    prioritize cleanup work within constrained funding limits.
                    However, EM ranked Los Alamos' decontamination and
                    decommissioning work at 96, while assigning a higher ranking of
                    56 to remediation activities. The facility decontamination and
                    decommissioning was ranked significantly lower than remediation
                    activities despite the fact that remediation activities cannot be
                    completed until the decontamination and decommissioning work is
                    performed. As a result of its relatively lower ranking, EM does not
                    plan to fund decontamination and decommissioning work at Los
                    Alamos until FY 2011. According to EM officials, facility
                    decontamination and decommissioning represents a lower risk than
                    other cleanup activities and, therefore, was ranked low in its
                    funding priorities. As previously noted, the higher priority
                    remediation activities work necessary to meet the 2011 and 2015
                    Consent Order milestones for Areas L and G cannot be completed
                    until the existing structures are removed.

                                                  Funding

                    Funding to meet requirements has been a major concern since the
                    Department signed the Consent Order in 2005. In February 2005,
                    for example, NNSA's Los Alamos Site Office Manager stated that
                    he had strong reservations that the appropriate resources had not
                    been identified to fully execute the environmental management
                    program needed to meet the requirements of the Consent Order.

                    According to EM officials, budget requests are based on balancing
                    risk reduction and regulatory requirements within the fiscally
                    constrained funding realities across the Federal government. This
                    level of spending allows compliance with many high-priority
                    obligations, as well as other high priority environmental
                    management activities needed to avoid risk to human health or




Page 2                                                               Details of Finding
                national security. However, EM indicated that they do not have
                enough money to address all the milestones and obligations
                contained in environmental agreements that have been negotiated
                with regulators over many decades.

                Despite these concerns, EM did not have a certified performance
                cost baseline necessary to support Los Alamos' funding requests
                until November 2007. The certified baseline establishes the cost,
                schedule, and contingency needed to meet the Consent Order
                milestones. Although Los Alamos had been working on a cost
                baseline as early as 2005, the Department's Office of Engineering
                and Construction Management (OECM) did not certify a cost
                baseline until November 2007 because of concerns about
                deficiencies in cost and schedule estimates, and contingency.

                Further, the recently certified performance baseline identifies a
                projected funding shortfall each year through 2012 that peaks at a
                cumulative $236 million in 2010. We noted that this shortfall does
                not include an additional $947 million in unfunded contingency.
                According to the Department, the certified baseline means that the
                identified scope of work can be accomplished within the stated
                cost and completion date. However, OECM stated that this would
                occur only if the work projects are funded consistent with their
                respective cost profiles and contingency funds are provided as and
                when required. Furthermore, OECM pointed out that
                discrepancies between the current funding profiles and the stated
                project cost profiles must be resolved.

Risk and Cost   Delays in completing the prerequisite work and the subsequent
                impact on meeting Consent Order milestones may not only
                increase the cost of the overall environmental cleanup but may also
                increase the risk to employees and the public to exposure to
                contaminants. We noted that efforts in the past to recover the
                schedule have resulted in increased costs. For example, in 2007,
                EM experienced delays in performing the environmental
                characterization necessary to meet a 2008 Consent Order
                milestone. EM assigned additional resources to recover the
                schedule for completing the environmental characterization that
                could eventually increase costs by as much as $3 million. More
                importantly, delays in completing the environmental cleanup may
                increase the risk to public health and safety. Delays in meeting
                milestones may also adversely impact the Department's ability to
                work cooperatively with the New Mexico Environment
                Department toward achieving its environmental cleanup
                objectives.




Page 3                                                         Details of Finding
RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental
                   Management ensure that:

                      1. Funding priorities for prerequisite work and Consent Order
                         milestones are consistent; and,

                      2. Discrepancies between the current funding profiles, the
                         stated project cost profiles, and related contingency are
                         resolved.

                   We also recommend that the Associate Administrator for
                   Infrastructure and Environment, NNSA, ensure that schedules are
                   updated for meeting Consent Order milestones that have been
                   impacted by delays in removing all transuranic waste and
                   performing the decontamination and decommissioning of facilities.

MANAGEMENT and     Management officials from NNSA and EM concurred with the
AUDITOR COMMENTS   audit recommendations. NNSA agreed to ensure that schedules are
                   updated for meeting the Consent Order milestones. Similarly, EM
                   agreed to ensure that funding priorities for prerequisite work and
                   Consent Order milestones are consistent and that discrepancies
                   between the current funding profiles, the stated project cost
                   profiles and related contingency are resolved. However, EM
                   recognized that their FY 2009 budget would not meet some of the
                   milestones contained in all the environmental agreements
                   negotiated over the many years. According to EM, incomplete
                   knowledge of the technical complexity and costs involved, coupled
                   with contractor performance issues impeded meeting the
                   milestones and obligations contained in the environmental
                   compliance agreements. Nonetheless, EM did indicate that it is
                   now in a better position to have reason for optimism in the legacy
                   cleanup at Los Alamos. Contractor and project performance has
                   improved, which resulted in meeting two at risk Consent Order
                   milestones. Further, there has been progress with the offsite
                   shipment rate of the high activity transuranic waste and the
                   baseline was recently certified for the integrated cleanup projects.
                   Finally, EM believes it now possesses the tools to work with the
                   regulator to re-order work packages and set priorities to
                   accomplish the cleanup objectives for the site.

                   Management's comments are included in their entirety in Appendix 3.




Page 4                                          Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to evaluate the Department of
              Energy's progress in meeting Los Alamos National Laboratory
              Consent Order milestones.

SCOPE         The audit was performed between January 2007 and January 2008.
              We conducted work at Los Alamos National Laboratory, the Los
              Alamos Site Office, and the National Nuclear Security
              Administration (NNSA)/Office of Environmental Management
              (EM)/Department Headquarters in Washington, DC.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed the Consent Order, Project Execution Plan,
                       Risk Management Plan, Fiscal Year 2007 Work Plan,
                       Congressional Budget Requests, laws, regulations,
                       contractual requirements, and policies and procedures
                       relevant to the management of the environmental
                       cleanup;

                   •   Analyzed and compared Los Alamos baseline cost
                       estimates to the Department funding targets;

                   •   Reviewed the Office of Engineering and Construction
                       Management baseline certification memorandum;

                   •   Determined if baseline schedules, cost estimates, and
                       contingency had been validated;

                   •   Reviewed the draft transuranic waste baseline schedule;

                   •   Reviewed transuranic waste removal status reports;

                   •   Interviewed key personnel at Los Alamos National
                       Laboratory, the Los Alamos Site Office, and
                       NNSA/EM/Department Headquarters in Washington,
                       DC; and,

                   •   Reviewed results of prior audits and reviews.


              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and


Page 5                                    Objective, Scope, and Methodology
Appendix 1 (Continued)

                    conclusions based on our audit objectives. The audit included tests
                    of internal controls and compliance with laws and regulations to
                    the extent necessary to satisfy the audit objective. Because our
                    review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of
                    our audit. Also, we evaluated the Department's implementation of
                    the Government Performance and Results Act of 1993 as they
                    related to the audit objective. Our review did identify performance
                    measures directly relating to Los Alamos' Environmental
                    Management Program. Since we did not rely upon automated data
                    processing information to accomplish our audit objective, we did
                    not conduct an assessment of the reliability of computer processed
                    data.

                    An exit conference was held with NNSA and EM officials on
                    April 10, 2008.




Page 6                                         Objective, Scope, and Methodology
Appendix 2

                             RELATED AUDIT REPORTS

  •   Transuranic Waste Management at Los Alamos National Laboratory (DOE/IG-0673,
      February 2005). The Department of Energy (Department) was not meeting its
      commitments for removing transuranic waste from Los Alamos. Based on projections,
      the Department would complete removal of all high-risk waste in October 2005.
      However, the Department estimated that it was unlikely to complete removal of the
      legacy transuranic waste before 2014. The Department was not meeting the accelerated
      waste disposal goals because Los Alamos had not consistently followed approved waste
      processing procedures. Further, to meet the accelerated schedule, Los Alamos planned to
      use mobile waste processing equipment provided by the Department; however, the
      Department did not supply the equipment because of its' concern about Los Alamos'
      ability to use the equipment in a timely manner. We concluded that unless the
      Department accelerated the processing rates, the total cost of completing the waste
      disposition project would be increased by over $70 million.




Page 7                                                               Related Audit Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (Continued)




Page 9                   Management Comments
Appendix 3 (Continued)




Page 10                  Management Comments
                                                                    IG Report No. DOE/IG-0793


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
